BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amicus Curiae Immigration Reform Law Institute in
Support of Petitioners in 20-437, United States v.
Refugio Palomar-Santiago, were sent via Next Day
Service to the U.S. Supreme Court, and Next Day email service to the following parties listed below, this
1st day of March, 2021:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioners
Jeffrey L. Fisher
O'Melveny & Myers LLP
2765 Sand Hill Road
Menlo Park, CA 94025-7019
(650) 473-2633
jlfisher@omm.com

i

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

, www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Aarin Kevorkian
Federal Public Defender
411 E. Bonneville Ave. Suite 250
Las Vegas, NV 89101
(702) 388-6577
Aarin_Kevorkian@fd.org

Counsel for Respondent
Christopher J. Hajec
Counsel of Record
Gina M. D'Andrea
Immigration Reform Law Institute
25 Massachusetts Ave., NW
Suite 335
Washington, DC 20001
(202) 232-5590
chajec@irli.org

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 1, 2021.

0( rft~

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

~h
(]7/k,

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date

Notary Publi~
[seal]

ftl,

;Jud-(

~

